HHS/OIG, Audit -"Review of Medicare Severance and Termination Costs Claimed By Blue Cross&Blue
Shield of Rhode Island for February-December 2004,"(A-01-05-00509)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Severance and Termination Costs Claimed By Blue Cross & Blue Shield of Rhode
Island for February-December 2004," (A-01-05-00509)
September 19, 2005
Complete
Text of Report is available in PDF format (531 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the severance and termination costs that Blue Cross & Blue
Shield of Rhode Island (Rhode Island) claimed are allowable, allocable, and reasonable, in accordance
with Medicare contract provisions, Federal regulations, and company policies.  From February 1,
2004, through December 1, 2004, Rhode Island claimed $205,474 in severance and termination costs that
were not allowable for Medicare reimbursement.  These unallowable claims were made because Rhode
Island did not have adequate internal control procedures to ensure that costs were claimed in accordance
with Federal regulations.
We recommended that Rhode Island reduce its severance and termination vouchers by $205,474 ($73,971
Part A and $131,503 Part B).  In response to our draft report, Rhode Island agreed with the recommended
disallowances of $193,450 in unallowable costs.  However, Rhode Island did not agree with $12,024
in unallowable depreciation and asset write-off costs.